No. 19-247
In the

Supreme Court of the United States
__________________

CITY OF BOISE, IDAHO,
v.

Petitioner,

ROBERT MARTIN, LAWRENCE LEE SMITH, ROBERT
ANDERSON, JANET F. BELL, PAMELA S. HAWKES, AND
BASIL E. HUMPHREY,
Respondents.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

__________________

BRIEF OF BOISE METRO CHAMBER OF
COMMERCE, INC. AS AMICUS CURIAE IN
SUPPORT OF PETITIONER
__________________
CRAIG L. MEADOWS
Counsel of Record
THOMAS J. MORTELL
AUSTIN T. STROBEL
HAWLEY TROXELL ENNIS & HAWLEY LLP
877 Main Street, Suite 1000
P.O. Box 1617
Boise, Idaho 83701-1617
(208) 344-6000
cmeadows@hawleytroxell.com
Counsel for Amicus Curiae
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. The Ninth Circuit’s ruling stretches this
Court’s Eighth Amendment jurisprudence
beyond its limits . . . . . . . . . . . . . . . . . . . . . . . 3
B. The Ninth Circuit’s ruling will harm Boise
businesses, tourism, and the City’s
reputation by hamstringing the City’s efforts
to enact and enforce generally applicable
laws that place reasonable restrictions on
camping in public spaces. . . . . . . . . . . . . . . . . 5
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF AUTHORITIES
CASES
Ingraham v. Wright,
430 U.S. 651 (1977). . . . . . . . . . . . . . . . . . . . . . 1, 3
Powell v. Texas,
392 U.S. 514 (1968). . . . . . . . . . . . . . . . . . 1, 3, 4, 5
Robinson v. California,
370 U.S. 660 (1962). . . . . . . . . . . . . . . . . . 1, 3, 4, 5
CONSTITUTIONS AND STATUTES
U.S. Const. amend. VIII. . . . . . . . . . . . . . 1, 3, 5, 6, 12
Idaho Const. art. XII, § 2 . . . . . . . . . . . . . . . . . . . . . . 6
Idaho Code § 50-301 . . . . . . . . . . . . . . . . . . . . . . . . . . 6
OTHER AUTHORITIES
2019 State of the City, City of Boise, available at
https://www.cityofboise.org/departments/mayo
r/state-of-the-city/ . . . . . . . . . . . . . . . . . . . . . . . . 11
Rob Hayes, Planters, other obstacles being used to
block homeless camps in Los Angeles, ABC7,
July 10, 2019, available at https://abc7.com/
society/planters-other-obstacles-blocking-home
less-camps-in-la/5388218/. . . . . . . . . . . . . . . . . . . 8

1
INTEREST OF AMICUS CURIAE
Amicus, Boise Metro Chamber of Commerce, Inc.,
(the “Chamber”), is an Idaho non-profit corporation and
an association of businesses and business people in the
Boise metropolitan area. The Chamber currently serves
more than 1,800 member businesses, which represents
more than 120,000 employees. The Chamber, on behalf
of its members, serves as the Boise region’s advocate
for a vibrant and prosperous economy, and is concerned
with ensuring that Boise remains a great place to live,
visit, and do business.1
SUMMARY OF ARGUMENT
As thoroughly pointed out by City of Boise (the
“City”) in its Petition for Writ of Certiorari (the
“Petition”), the Ninth Circuit’s decision greatly expands
the “sparingly applied” substantive limits imposed by
the Cruel and Unusual Punishment Clause of the
Eighth Amendment and creates a conflict amongst
circuit courts. Pet. Sections I, II; see Robinson v.
California, 370 U.S. 660 (1962); Powell v. Texas, 392
U.S. 514 (1968); and Ingraham v. Wright, 430 U.S. 651
(1977). The Chamber agrees with the City that a grant
of certiorari is appropriate on the grounds that the
Ninth Circuit’s ruling is in conflict with this Court’s

1

Pursuant to Rule 37.6, the Chamber affirms that no counsel for
a party authored this brief in whole or in part and that no person
other than the Chamber and their counsel made a monetary
contribution to its preparation or submission. Pursuant to Rule
37.2, the Chamber provided notice of its intent to file its brief more
than 10 days prior to the due date. All parties have submitted
blanket consents to the submission of timely-filed amicus briefs.

2
precedent and because it creates a split of authority in
the circuits. Pet. 24–25.
While the Chamber joins its voice with the above
legal arguments raised by the City in its Petition, the
Chamber submits this brief primarily to express its
practical concerns about the effect of the Ninth
Circuit’s ruling on the Chamber, its members, and the
Boise business community. See, e.g., Pet. Section III.
Simply put, the Ninth Circuit’s ruling extensively
infringes upon the City’s exercise of police power –
granted by the Idaho Constitution and the Idaho Code
– to regulate conduct that affects the public health and
welfare of the City and its residents. In addition, the
Ninth Circuit panel’s decision elevates the interests of
the City’s homeless population over the interests of
other stakeholders in the community, including local
businesses. Moreover, the negative impacts of the
ruling are likely to extend far beyond the public sector.
Indeed, the consequences of the ruling also include
shifting the costs and burden to private businesses to
deal with (or simply, live with) problems associated
with homeless encampments in public spaces, damage
to businesses in the Boise community, damage to
tourism in the Boise community, and irreparable
damage to the City’s reputation as a great place to live,
work, and do business.
For these reasons, the Chamber urges this Court to
grant the City’s Petition.

3
ARGUMENT
A. The Ninth Circuit’s ruling stretches this
Court’s Eighth Amendment jurisprudence
beyond its limits
In the case of Ingraham v. Wright, 430 U.S. 651
(1977), this Court summarized the three ways in which
the Eighth Amendment’s Cruel and Unusual
Punishment Clause “circumscribes the criminal
process.” Ingraham, 430 U.S. at 667. First, “it limits
the kinds of punishment that can be imposed on those
convicted of crimes”; second, “it proscribes punishment
grossly disproportionate to the severity of the crime”;
and third, “it imposes substantive limits on what can
be made criminal and punished as such.” Ingraham,
430 U.S. at 667 (citations omitted). In referencing the
third substantive category, the Court recognized the
Eighth Amendment’s substantive limitation as
one “to be applied sparingly.” Id.
In Robinson v. California, 370 U.S. 660 (1962) this
Court recognized and adopted an “act-status”
distinction in evaluating the Eighth Amendment’s
limits on substantive criminal law, holding that it
violated the Eighth Amendment’s Cruel and Unusual
Punishment Clause for California to criminalize Mr.
Robinson’s status as a drug addict. Robinson, 370 U.S.
at 666–68. Six years later in Powell v. Texas, 392 U.S.
514 (1968) (plurality op.) this Court’s plurality opinion
again recognized the “act-status” distinction of the
Eighth Amendment’s substantive component in a
challenge to Mr. Powell’s conviction for public
drunkenness. Id. at 532. Critically, the Powell

4
plurality, in distinguishing Powell from Robinson,
noted that:
[Powell] was convicted, not for being a chronic
alcoholic, but for being in public while drunk on
a particular occasion. The State of Texas thus
has not sought to punish a mere status, as
California did in Robinson; nor has it attempted
to regulate appellant’s behavior in the privacy of
his own home. Rather, it has imposed upon
appellant a criminal sanction for public behavior
which may create substantial health and safety
hazards, both for appellant and for members of
the general public, and which offends the moral
and esthetic sensibilities of a large segment of
the community.
Powell, 392 U.S. at 532. In further distinguishing
Powell from Robinson, the Powell plurality also noted
that:
[t]he entire thrust of Robinson’s interpretation of
the Cruel and Unusual Punishment Clause is
that criminal penalties may be inflicted only if
the accused has committed some act, has
engaged in some behavior, which society has an
interest in preventing, or perhaps in historical
common law terms, has committed some actus
reus. It thus does not deal with the question of
whether certain conduct cannot constitutionally
be punished because it is, in some sense,
‘involuntary’ or ‘occasioned by a compulsion.’”
Id. at 533. Consistent with the Powell plurality, and as
already ably pointed out by the City, this Court has

5
never exempted from regulation purportedly
“involuntary” acts. Pet. 3. Indeed, such a holding
would, as Justice Marshall observed in Powell, remove
any “limiting principle” that would prevent the Court
from becoming “the ultimate arbiter of the standards of
criminal responsibility, in diverse areas of the criminal
law, throughout the country” and would significantly
undermine “common-law concepts of personal
accountability and essential considerations of
federalism[.]” Powell, 392 U.S. at 533, 535.
The Ninth Circuit’s ruling, which found that the
purportedly “involuntary” act of sleeping in public
spaces is substantively proscribed by the Eighth
Amendment’s Cruel and Unusual Punishment Clause
(unless burdensome conditions are met) serves as a
significant departure from the “act-status” principle
discussed in Robinson and the Powell plurality, and
thereby, stretches this Court’s prior Eighth
Amendment jurisprudence beyond its limits.
B. The Ninth Circuit’s ruling will harm Boise
businesses, tourism, and the City’s
reputation by hamstringing the City’s
efforts to enact and enforce generally
applicable laws that place reasonable
restrictions on camping in public spaces
As recognized by Judge Milan Smith in the sixjudge dissent to the denial of rehearing en banc, the
Ninth Circuit’s ruling “leaves cities with a Hobson’s
choice: They must either undertake an overwhelming
financial responsibility to provide housing for or count
the number of homeless individuals within their
jurisdiction every night, or abandon enforcement of a

6
host of laws regulating public health and safety.” Pet.
App 15a–16a. Given that performing any sort of
accurate, up-to-date “count” of Boise’s homeless
population is unworkable in practice, the de facto effect
of the Ninth Circuit’s ruling is to completely restrict
the City’s police power to enact and enforce generally
applicable laws geared towards proscribing camping in
public areas, and consequently, to create a de facto
“right” to camp and live in public areas. Pet. 27.
Notably, the Idaho Constitution provides that “[a]ny
county or incorporated city or town may make and
enforce, within its limits, all such local police, sanitary
and other regulations as are not in conflict with its
charter or with the general laws.” Idaho Const. art. XII,
§ 2 (emphasis added). This same broad police power is
echoed in the Idaho Code, which provides that “[c]ities
governed by this act shall be bodies corporate and
politic…and exercise all powers and perform all
functions of local self-government in city affairs as are
not specifically prohibited by or in conflict with the
general laws of the constitution of the state of Idaho.”
Idaho Code § 50-301.
Pursuant to the expansive grant of police power
that originates from both the Idaho Constitution and
the Idaho Code, the City enacted the two public
camping ordinances at issue in the instant case. The
Ninth Circuit, in ruling that the Eighth Amendment
effectively prohibits the enforcement of these
ordinances, completely restricts the City’s ability to use
its constitutionally-granted police power to regulate
camping in its public spaces.

7
The Chamber does not dispute that homeless
individuals, in the absence of adequate shelter, rely on
Boise’s public spaces to live, play, and relax. However,
businesses in the Boise area also rely on the physical
infrastructure of Boise’s public spaces, such as public
rights of way like roads and sidewalks, to bring in
business from Boise residents and visitors alike. Many
local businesses, particularly businesses in Boise’s
vibrant downtown – including Boise’s many
restaurants and shops – rely on business brought in
from residents and visitors who frequent Boise’s parks
and public spaces. This common need for, and reliance
on, public spaces creates significant potential pressure
points between the interests of Boise’s homeless
population and the interests of the Boise business
community.
In essence, by recognizing a de facto right to camp
in public spaces, the Ninth Circuit’s ruling elevates the
rights of the homeless to access and use public spaces
over the rights of anyone else, including business
owners, who rely on and/or use those same public
spaces. With the City stripped of its ability to
effectively regulate camping in public areas, problems
that formerly could have been (and likely were)
handled through the issuance of a citation by the City
now become the problems of other stakeholders,
including Boise’s business owners, who are ill-equipped
to do anything about it. Though well-intended, the
Ninth Circuit panel’s ruling has not, by judicial fiat,
solved the problem of homelessness. Instead, the
panel’s ruling effectively “kicks the can down the road”
to other stakeholders to deal with (or simply, live with)

8
the difficult situations associated with camping in
public areas.
This effect is noted in Southern California, where in
summer 2019, business owners took matters into their
own hands to prevent the proliferation of homeless
encampments. There, business owners placed
“homeless encampment prevention” devices (such as
planters and other objects) onto public sidewalks to
prevent homeless individuals from setting up tents or
other forms of shelter around their respective
businesses.2 These sorts of desperate self-help
solutions, in addition to being illegal, also serve, as
pointed out by Los Angeles Mayor Eric Garcetti, as yet
another kick of the can down the road to the businesses
on the next block.3 While the Chamber certainly does
not condone such ineffective and illegal self-help
methods, the recent occurrences in Los Angeles
underscore that the Ninth Circuit’s ruling has not
solved, or really even changed, the problem of
homelessness. Instead, the Ninth Circuit’s ruling has
simply shifted the costs and burden of public camping
from the homeless to other stakeholders (including
local businesses) who also use and rely on public
spaces.
By elevating the interests of the homeless to access
and camp in public spaces over the interests of local
2

Rob Hayes, Planters, other obstacles being used to block homeless
camps in Los Angeles, ABC7, July 10, 2019, available at
https://abc7.com/society/planters-other-obstacles-blockinghomeless-camps-in-la/5388218/
3

Id.

9
businesses that rely on those same public spaces, and
by shifting the cost and burden of camping in public
spaces from the homeless to other stakeholders (such
as local businesses), the Ninth Circuit’s ruling has
significantly and negatively impacted the Boise
business community.
One Chamber member, the Greater Boise
Auditorium District (the “District”), which operates a
large convention center (the Boise Centre) in downtown
Boise has, over the past year, dealt with the presence
of campers in the public space adjacent to Boise Centre.
Convention visitors, despite also noting the many
wonderful things about Boise’s downtown, made
comments about public campers that indicated that
public camping detracted from Boise’s otherwise
sterling reputation as a clean, walkable, vibrant city.
The District, in its contacts with Boise police, were left
with the impression that there was nothing that could
be done unless the campers became boisterous or set up
a tent immediately adjacent to the building or directly
in front of emergency ingress or egress.
Similarly, the Boise Convention & Visitors Bureau
(“BCVB”), an entity tasked with recruiting and
bringing conventions and other meetings to Boise, has
noted, based on observations during visits to Boise by
out-of-state convention planners, a marked increase in
Boise’s homeless population over the last year. This is
concerning to BCVB, because Boise’s cleanliness and
safety has always been a strength of the community
noted by event planners during past site visits, and has
contributed greatly to BCVB’s success in bringing
conventions and other events to downtown Boise.

10
BCVB is concerned that the proliferation of public
camping could, in the future, negatively impact the
City’s hard-earned reputation and hamper its ability to
bring events to Boise that stimulate economic activity
in the area.
Another Chamber member, CoreStrong Studio (the
“Studio”), a fitness facility located two doors down from
the Corpus Christi House shelter, deals with
significant issues related to public camping. While
public camping has not occurred on the sidewalk
directly in front of the Studio, the Studio recently felt
the effects of camping that occurs on the public
sidewalks approximately 50 feet away from its store
front. The Studio and its patrons witness these
campers openly urinating and defecating. The Studio
deals with trash and human waste on its property,
culminating with the discovery approximately six
months ago of a can filled with human feces in its
garbage can. The Studio witnesses drug deals in its
parking lot. The Studio estimates it has spent between
$15,000 to $20,000 installing fencing, security cameras,
and other measures to mitigate the burden that public
camping has placed on its business. The Studio
believes that public camping occurring near its
business directly impacts its ability to attract clients
that might otherwise use its services, and generally,
that public camping harms Boise’s reputation as a
great place to do business.
The above examples are just a small sample of the
costs and burdens shifted to the Boise business
community by the Ninth Circuit’s ruling. Given that
ruling, these types of situations and circumstances are

11
not only likely to persist, but also to increase in
frequency. Additionally, the Ninth Circuit’s ruling
threatens Boise’s hard-earned reputation as a
wonderful place to live, work, and recreate.
The Chamber is not unsympathetic to the plight of
Boise’s homeless, and is fully supportive of the City’s
efforts to raise funds and to expand infrastructure and
services for the City’s homeless population. Pet. 4. In
fact, at the September 18, 2019 “State of the City”
address, Boise Mayor David Bieter called for the
community to work toward ending family
homelessness, highlighting the recently opened New
Path Community Housing and the groundbreaking on
Valor Pointe, which are two current City projects to
combat chronic homelessness.4 In addition to
highlighting these two projects, the Mayor also
announced during the address that the City would be
teaming up with Ada County and others to focus
resources and expand services to serve Boise’s
homeless.5 In the Chamber’s view, these sorts of
focused, collaborative efforts at the local level are most
effective in addressing homelessness.
The Chamber believes the Ninth Circuit’s ruling to
have been well-intended. If affirmed, however,
Chamber members (and other Boise businesses) must,
without the power to do anything at all, suffer the
unfortunate collateral results of the ruling. The Ninth

4

2019 State of the City, City of Boise, available at https://www.city
ofboise.org/ departments/mayor/state-of-the-city/
5

Id.

12
Circuit’s ruling – in stretching this Court’s Eighth
Amendment jurisprudence beyond its current limits –
has elevated an issue best addressed by a
municipality’s police power to an issue of
Constitutional import. By so doing, it has shifted the
cost and burden of dealing with public camping to other
stakeholders, such as Boise’s business community.
The Chamber respectfully requests that this Court
grant certiorari and review the decision of the Ninth
Circuit. In so doing, the Chamber respectfully requests
that the Court take into account the ruling’s impacts
(and potential impacts) on the Boise business
community.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
CRAIG L. MEADOWS
Counsel of Record
THOMAS J. MORTELL
AUSTIN T. STROBEL
HAWLEY TROXELL ENNIS & HAWLEY LLP
877 Main Street, Suite 1000
P.O. Box 1617
Boise, Idaho 83701-1617
(208) 344-6000
cmeadows@hawleytroxell.com
Counsel for Amicus Curiae
SEPTEMBER 2019

